           Office of Inspector General




June 9, 2005

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

SUBJECT:         Audit Report – Surface Transportation – Bulk Mail Center Highway
                 Transportation Routes – New York Metro Area
                 (Report Number NL-AR-05-007)

This report presents results of our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL004). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the New York Metro Area.

The Postal Service could save about $1.5 million over the term of existing New York
Metro Area bulk mail highway contracts by canceling, not renewing, or modifying
16 trips. The savings represent potential funds that could be put to better use and will
be reported as such in our Semiannual Report to Congress. The Postal Service could
eliminate or modify the trips without negatively affecting service because trip volume
was low and mail could be consolidated on other trips. We recommended the vice
president, New York Metro Area Operations, verify the actual cancellation, modification,
or substitution of the 16 trips.

Management agreed with our recommendation. They stated that they would implement
the adjustments by mid-July 2005. Management’s comments and our evaluation of
these comments are included in this report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Highway                                 NL-AR-05-007
 Transportation Routes – New York Metro Area



                                       INTRODUCTION
Background                    Bulk mail includes magazines, advertising, and
                              merchandise shipped by major mailers like publishers,
                              catalog companies, or online retail companies. It is
                              processed by a system of 21 bulk mail centers and other
                              facilities nationwide. The Postal Service spends more than
                              $500 million annually on contracts to transport bulk mail
                              over highway networks. Contracted routes are controlled by
                              individual Postal Service areas.

                              This report focuses on the routes controlled by the
                              New York Metro Area and responds to a request from the
                              vice president, Network Operations Management.

Objectives, Scope,            The objectives of our audit were to evaluate the
and Methodology               effectiveness of scheduled bulk mail center highway
                              transportation routes and to identify opportunities for cost
                              savings.

                              Using Postal Service computer-generated data, we
                              identified 229 trips operated under 43 New York Metro Area
                              contracts that had at least one bulk mail center service
                              point. In preparation for our work, we provided area officials
                              and Postal Service managers with the list of New York
                              Metro Area contracts we intended to audit. During our
                              work, we interviewed officials at headquarters and in the
                              New York Metro Area; reviewed relevant Postal Service
                              policies and procedures; visited the area’s bulk mail center;
                              interviewed managers and employees; and observed and
                              photographed operations. We consulted with financial
                              analysts, computer analysts, and other subject matter
                              experts; evaluated mail volume and the type of mail carried;
                              considered service standards; and analyzed all 229 trips.
                              We also discussed our observations and conclusions with
                              appropriate management officials and included their
                              comments where appropriate.

                              We conducted work associated with this report from
                              November 2004 through June 2005 in accordance with
                              generally accepted government auditing standards and
                              included such tests of internal controls that we considered
                              necessary under the circumstances.




                                                    1
Surface Transportation – Bulk Mail Center Highway                               NL-AR-05-007
 Transportation Routes – New York Metro Area




Data Limitations              During our audit, we examined computer data in
                              management’s Transportation Contract Support System and
                              Transportation Information Management Evaluation System.
                              We did not audit or comprehensively validate the data;
                              however, we noted several control weaknesses that
                              constrained our work. For example, the Transportation
                              Information Management Evaluation System had missing
                              records and inaccurate trailer load volumes. Even though
                              data limitations constrained our work, we were able to
                              partially compensate by applying alternate audit procedures,
                              including source document examination, observation,
                              physical inspection, and discussion with responsible
                              officials. We also applied conservative principles to our
                              monetary impact estimates and, accordingly, always
                              selected the most restrained assessment.

Prior Audit Coverage          Since September 2002, the Office of Inspector General has
                              worked with Postal Service management to reduce surface
                              transportation. As a result, we have issued 13 audit reports
                              that identified potential savings exceeding $62 million over
                              the life of eliminated or reduced transportation contracts.
                              For more detailed information about these audits, see
                              Appendix A.




                                                    2
Surface Transportation – Bulk Mail Center Highway                                   NL-AR-05-007
 Transportation Routes – New York Metro Area



                                       AUDIT RESULTS

Contracted Bulk Mail           The Postal Service could save about $1.5 million over the
Center Highway Trips           term of existing New York Metro Area bulk mail highway
                               contracts by canceling, not renewing, or modifying 16 trips.
                               The Postal Service could eliminate or modify the trips
                               without negatively affecting service because trip mail
                               volume was low and mail could be consolidated on other
                               trips. As indicated below, 50 percent of affected trips will
                               expire within one year. The other 50 percent have one to
                               three years remaining.
                                          PROPOSED NON-RENEWALS AND CANCELLATIONS

                                         TRIP             AFFECTED      NUMBER     ESTIMATED
                                       CATEGORY             TRIPS       OF TRIPS    SAVINGS

                                 Contracts expiring
                                 within one year           50 percent       8       $1,243,606

                                 Contracts expiring in
                                 one to three years        50 percent       8         255,765

                                 All terminated trips     100 percent      16       $1,499,371

                               Postal Service policy requires transportation managers to
                               balance service and cost. Although managers continually
                               strive to optimize transportation through aggressive cost




         Two highway
 transportation contractors
   entering the New Jersey
 International and Bulk Mail
  Center December 2, 2004.




                               cutting efforts such as their breakthrough productivity
                               initiative, transportation requirements are dynamic and
                               constantly change. Consequently, the Postal Service could
                               attain additional savings through further service reductions
                               by not renewing unnecessary trips that are scheduled

                                                      3
Surface Transportation – Bulk Mail Center Highway                                  NL-AR-05-007
 Transportation Routes – New York Metro Area



                              to expire within one year or by canceling unnecessary
                              trips that are currently contracted to continue for one to
                              three years. The savings we identified included savings
                              from nonrenewable trips, plus savings from trip
                              cancellations net of cancellation fees totaling approximately
                              $34,312.

Cooperative Effort and        As a result of our continuing efforts to partner with and bring
Rapid Implementation          value to the Postal Service, we had ongoing communication
                              with New York Metro Area officials throughout our audit.
                              After we completed our analysis, we provided the New York
                              Metro Area officials with a list of our specific trip proposals
                              and the officials reviewed each proposal in conjunction with
                              their own assessment of area-wide network requirements.
                              After the area's review, we met with area officials,
                              discussed our proposals and area operational needs, and
                              made appropriate adjustments to our proposals. As a
                              result of the cooperative effort, the area agreed with the
                              16 proposals outlined in Appendix B.

Recommendation                We recommend the vice president, New York Metro Area
                              Operations:

                                  1. Verify the actual cancellation, modification, or
                                     substitution of the 16 trips with which Postal Service
                                     managers agreed and give the date action was taken.

Management’s                      Management agreed with our recommendation. They
Comments                          stated that all requested changes would be made by
                                  mid-July 2005. They also stated that they see reviews,
                                  like this one, as a means of optimizing the surface
                                  transportation network. Management’s comments, in
                                  their entirety, are included in Appendix C of this report.

Evaluation of                     Management’s comments are responsive to our
Management’s                      recommendation. We applaud the cooperative efforts
Comments                          and timely action taken by the New York Metro Area and
                                  we consider the actions the area has taken or planned
                                  sufficient to address the issues we identified.




                                                    4
 Surface Transportation – Bulk Mail Center Highway                                                                                         NL-AR-05-007
  Transportation Routes – New York Metro Area




                                        APPENDIX A. PRIOR REPORT COVERAGE



                                                                                      Number of                          Number of  Number of
                                                                                         Trips                           Trips With Trips With    Number of
                                                                            Report   Identified for       Potential        Which      Which         Trips
                                                                             Final  Elimination or         Savings      Management Management    Identified by
                      Report Name                           Report Number Issue Date Modification         Identified      Agreed    Disagreed    Management

Highway Network Scheduling - Pacific Area                   TD-AR-02-003 9/24/2002         158        $     4,500,417         76          34            48
Highway Network Scheduling - Northeast Area                 TD-AR-03-002 11/25/2002         18               776,992          10           8
Highway Network Scheduling - Capital Metro Area             TD-AR-03-007 3/28/2003          34             1,144,218          20          14
Highway Network Scheduling - New York Metro Area            TD-AR-03-008 3/31/2003          32               470,123          12          20
Highway Network Scheduling - Southwest Area                 TD-AR-03-010 7/11/2003         249             5,989,082         148         101
Highway Network Scheduling - Western Area                   TD-AR-03-013 9/23/2003          70             2,721,530          30          40
Highway Network Scheduling - Southeast Area                 TD-AR-03-014 9/26/2003         101            11,352,881          23          24            54
Highway Network Scheduling - Eastern Area                   TD-AR-03-015 9/30/2003         181            10,577,367         128          53
Highway Network Scheduling - Great Lakes Area               NL-AR-04-003 3/29/2004          72             5,352,877          48          22             2
Bulk Mail Center Transportation Routes - Great Lakes Area   NL-AR-04-004 9/29/2004          96             7,660,533          49           7            40
Bulk Mail Center Transportation Routes – Eastern Area       NL-AR-05-003 3/17/2005          35             4,791,570          29           6
Intermodal Rail and Highway Transportation – Pacific Area   NL-AR-05-004 3/18/2005           0             1,046,240
Bulk Mail Center Transportation Routes – Southeast Area     NL-AR-05-005 3/18/2005          52             6,563,582          52

                          Totals                                                         1,098        $   62,947,412         625         329           144




                                                                       5
Surface Transportation – Bulk Mail Center Highway                                                                         NL-AR-05-007
 Transportation Routes – New York Metro Area




                                                    APPENDIX B
                                  TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                         POSTAL SERVICE MANAGERS AGREED
 Effective
  Date of    End Date                                 Specific                         Annual    Estimated
   Last          of          HCR          Trip      Recommen-          Origin to       Budget     Contract   Indemnity   Estimated Cost
 Change      Contract      Number        Number        dation         Destination       Cost       Cost         Fees         Savings
 9/4/2004    6/30/2007      07692          817       Cancel trip        Northern       $10,060    $21,797      $3,353       $18,443*
                                                                      New Jersey
                                                                    Metro P&DC to
                                                                      New Jersey
                                                                   International and
                                                                         BMC
 9/4/2004    6/30/2007      07692          818      Cancel trip       New Jersey       $10,060    $21,797     $3,353        $18,443*
                                                                   International and
                                                                   BMC to Northern
                                                                      New Jersey
                                                                     Metro P&DC
 6/5/2004    6/30/2007      08890          811       Eliminate      Kilmer P&DC to     $8,499     $18,414     $2,833        $15,581
                                                     Saturday         New Jersey
                                                    and Sunday     International and
                                                                         BMC
 6/5/2004    6/30/2007      08890          812       Eliminate        New Jersey       $9,874     $21,393     $3,291        $18,102
                                                     Saturday      International and
                                                    and Sunday      BMC to Kilmer
                                                                         P&DC
10/4/2003    6/30/2005      10094          801       Eliminate        New Jersey       $38,191   $152,765       $0         $152,765
                                                      contract     International and
                                                     (combine      BMC to McGuire
                                                    with 10098            AFB
                                                      for new
                                                     contract)




                                                                   6
    Surface Transportation – Bulk Mail Center Highway                                                                                                   NL-AR-05-007
     Transportation Routes – New York Metro Area




     Effective
      Date of      End Date                                        Specific                               Annual          Estimated
       Last            of            HCR           Trip         Recommen-             Origin to           Budget           Contract        Indemnity   Estimated Cost
      Change       Contract        Number         Number             dation          Destination           Cost             Cost              Fees         Savings
     10/4/2003     6/30/2005        10094           802            Eliminate       McGuire AFB to         $38,191         $152,765             $0         $152,765
                                                                    contract         New Jersey
                                                                   (combine       International and
                                                                 with 100981            BMC
                                                                    for new
                                                                   contract)
     8/7/2004      6/30/2007        10211            805            Change          New Jersey             $3,486           $7,553          $1,162         $6,391
                                                                  frequency      International and
                                                                from QQ7 to           BMC to
                                                                       K7        Washington BMC

     8/7/2004      6/30/2007        10211            806           Change        Washington BMC            $3,486           $7,553          $1,162         $6,391
                                                                  frequency        to New Jersey
                                                                from QQ7 to      International and
                                                                      K7                BMC
     10/2/2004     6/30/2005        10212            817         Cancel trip         New Jersey           $85,716          $342,863           $0         $342,863
                                                                                 International and
                                                                                       BMC to
                                                                                 Springfield BMC
     10/2/2004     6/30/2005        10212            818         Cancel trip      Springfield BMC         $85,716          $342,863           $0         $342,863
                                                                                    to New Jersey
                                                                                  International and
                                                                                        BMC
     4/3/2004      6/30/2005        10590            809         Cancel trip         Westchester          $30,368          $121,473           $0         $121,473
                                                                                       P&DC to
                                                                                      New Jersey
                                                                                  International and
                                                                                        BMC




1
    Trips 801/802 for contract 10094 will be eliminated and service previously provided by 10094 will now be provided by contract 10098.

                                                                                   7
Surface Transportation – Bulk Mail Center Highway                                                                             NL-AR-05-007
 Transportation Routes – New York Metro Area




 Effective
  Date of     End Date                                Specific                         Annual      Estimated
   Last           of          HCR         Trip      Recommen-          Origin to       Budget       Contract     Indemnity   Estimated Cost
 Change       Contract      Number       Number        dation         Destination       Cost         Cost           Fees         Savings
 4/3/2004     6/30/2005      10590         810       Cancel trip      New Jersey       $22,377      $89,506          $0          $89,506
                                                                   International and
                                                                        BMC to
                                                                    New Rochelle,
                                                                       New York
 4/3/2004     6/30/2005         10590      817         Change        Westchester        $5,171      $20,686         $0          $20,686
                                                      frequency        P&DC to
                                                    from QQ7 to       New Jersey
                                                        QQ17       International and
                                                                         BMC
 4/3/2004     6/30/2005         10590      818         Change         New Jersey        $5,171      $20,686         $0          $20,686
                                                      frequency    International and
                                                    from QQ7 to         BMC to
                                                        QQ17         Westchester
                                                                         P&DC
 7/1/2004     6/30/2008         10990      809      Cancel trip        Rockland,       $28,736      $95,785       $9,579        $86,207*
                                                                      New York to
                                                                      New Jersey
                                                                   International and
                                                                         BMC
 7/1/2004     6/30/2008         10990      810      Cancel trip       New Jersey       $28,736      $95,785       $9,579        $86,207*
                                                                   International and
                                                                        BMC to
                                                                       Rockland,
                                                                       New York
              TOTALS                        16                                            Total:        Total:      Total:         Total:
                                                                                       $413,837*   $1,533,683*    $34,312     $1,499,371*

AFB           Air Force Base
BMC           Bulk Mail Center
HCR           Highway Contract Route
P&DC          Processing and Distribution Center
* Minor rounding differences.

                                                                   8
Surface Transportation – Bulk Mail Center Highway       NL-AR-05-007
 Transportation Routes – New York Metro Area




                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                    9
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-007
 Transportation Routes – New York Metro Area




                                                    10
